(?
.,,,-l'''4,,"VICø
                          DEPARTMENT
                          DEPARTMENTOF
                                     OFHEALTH
                                       HEALTH&.
                                              &. HUMAN
                                                 HUMAN SERVICES
                                                       SERVICES                                                               Office of
                                                                                                                              Office of Inspector
                                                                                                                                        Inspector General
                                                                                                                                                  General


-r..'..ll'..410
                                                                                                                              Washington, D.C. 20201

                                                                                                                              Washington, D.C. 20201




                                                                         MAY ,2 2
                                                                         MAY ,2    2009
                                                                                2 2009



                  TO:                 James Scanlon
                                      James  Scanlon
                                      Acting Assistant Secretar for
                                             Assistant Secretary for Planning
                                                                     Planing
                                        and Evaluation


                  FROM:               Daniel          R.f\
                                      Daniel R. Levinson
                                                         f\  oß¿.vI.
                                                             .~~.vI.
                                                           Levinson
                                                                  ~  ~ ~.
                                                                     ..
                                                                                           ~
                                      Inspector General


                  SUBJECT:            Review of the
                                      Review of theCalculations
                                                     Calculations
                                                                of 
 of Temporary Increases in
                                                                                            in Federal
                                                                                               Federal Medical
                                                                                                       Medical Assistance
                                                                                                               Assistance
                                      Percentages Under the American Recovery and Reinvestment Act
                                      (A-09-09-00075)
                                      (A-09-09-00075)


                                                                 of our review of
                  The attached final report provides the results of            of the calculations
                                                                                      calculations of
                                                                                                   of temporary
                                                                                                      temporary
                                                                        (FMAP) under the American
                  increases in Federal medical assistance percentages (FMAP)                American Recovery
                                                                                                       Recovery and
                  Reinvestment   Act (ARRA)
                  Reinvestment Act    (ARR) of2009,
                                              of2009,P.L.
                                                       P.L.No.
                                                            No.111-5,
                                                                  111-5,enacted
                                                                         enacted February 17,2009.

                       ARRAprovides
                  The ARR     providesfiscal
                                        fiscalrelief
                                                relieftotoStates
                                                           Statestotoprotect
                                                                      protectand
                                                                              andmaintain
                                                                                    maintainState
                                                                                             StateMedicaid
                                                                                                  Medicaid programs
                                                                                                            programs in a
                  period of economic downturn.
                                      downturn. For  For the
                                                           the recession
                                                               recession adjustment period (October i,1, 2008,
                                                                                                          2008, through
                                                                                                                through
                  December
                  December 31,31,2010),
                                  2010),the
                                          theARRA       provides $87
                                               ARR provides        $87 bilion
                                                                       billionininadditional
                                                                                   additionalMedicaid
                                                                                              Medicaidfunding
                                                                                                       fundingbased
                                                                                                               based on
                                                                                                                     on
                  temporary increases
                             increases in States'
                                           States' FMAPs.

                  The    Office
                  The Office of 
    of the Assistant
                                               Assistant Secretary
                                                               Secretaryfor     for Planning  and Evaluation
                                                                                     Planing and   Evaluation (ASPE)
                                                                                                                 (ASPE)calculates
                                                                                                                           calculates the
                                                                                                                                      the
                  temporary
                  temporar FMAP     FMAPincreases
                                                increasesquarterly
                                                                quarterlyfor   forthe
                                                                                    the50
                                                                                        50States
                                                                                           States and
                                                                                                  and the
                                                                                                       the District   ofColumbia.
                                                                                                             District of  Columbia.
                  Section      5001
                  Section 5001 of 
     of the ARRAARR providesprovidesfor    forcalculating
                                                                                  calculatingthe
                                                                                               thetemporary
                                                                                                   temporaryincreases
                                                                                                                 increases based
                                                                                                                             based on
                                                                                                                                   on three
                  components:
                  components: maintenancemaintenance
                                          of 
                ofthethe FMAP ("hold harmless"), an across-the-board increase of
                  6.2   percentage        points,      and   additional
                  6.2 percentage points, and additional relief 
               relief based on increases in States'
                                                                                                               States' average
                                                                                                                         average monthly
                                                                                                                                 monthly
                  unemployment rates.      rates. ASPEASPE provides
                                                                 provides the resulting FMAPs FMAPs to  to the
                                                                                                            the Centers
                                                                                                                Centers for Medicare
                                                                                                                              Medicare
                  &   Medicaid
                  & Medicaid Services, Services,
                                       which uses them which     uses
                                                       to determine      themof to detennine the amount of Federal funds
                                                                    the amount                                                    to award
                                                                                                                            fuds to  award to

                                                                                                                                            to
                  States through its Medicaid grant process.

                  Our objective was to determine  detennine whether ASPE calculated the temporary FMAP
                                                                                                     FMAP increases
                                                                                                            increases for
                                                                                                                      for the
                  first  and
                  first and     second
                            second quarers ofquarters
                                              
                  fiscal year (FY) 2009 in accordance with applicable
                                                      of Federal fiscal
                  provisionsof
                  provisions         ofthetheARRA.
                                                ARR.

                  ASPE calculated
                             calculated the    the temporary
                                                     temporar FMAP    FMAPincreases
                                                                                  increasesfor    forthe
                                                                                                      thefirst
                                                                                                          first and
                                                                                                                and second
                                                                                                                     second quarters
                                                                                                                            quarters of
                                                                                                                                     ofFY
                                                                                                                                        FY 2009
                                                                                                                                             2009 for
                  the 50 States and the District of               of Columbia in accordance with applicable provisions of               of the
                  ARRA.         Specifically,
                  ARR. Specifically,                  ASPE
                                     ASPE identified the correct identified      the(thecorrect
                                                                 FMAP hold harmless                FMAP hold harmless (the higher of the
                                                                                         higher of 


                  published FMAPs for FY              FYss 2008
                                                              2008 and and 2009
                                                                              2009 for  for each State and the District of  of Columbia), added the
Page 2 – James Scanlon


across-the-board increase of 6.2 percentage points, and properly calculated the additional relief.
Consequently, this report contains no recommendations.

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of Inspector General reports
generally are made available to the public to the extent that information in the report is not
subject to exemptions in the Act. Accordingly, this report will be posted on the Internet at
http://oig.hhs.gov/.

If you have any questions or comments about this report, please do not hesitate to call me,
or your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through e-mail at George.Reeb@oig.hhs.gov.
Please refer to report number A-09-09-00075 in all correspondence.


Attachment
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




REVIEW OF THE CALCULATIONS
 OF TEMPORARY INCREASES IN
FEDERAL MEDICAL ASSISTANCE
  PERCENTAGES UNDER THE
  AMERICAN RECOVERY AND
     REINVESTMENT ACT




                    Daniel R. Levinson
                     Inspector General

                        May 2009
                      A-09-09-00075
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The American Recovery and Reinvestment Act (ARRA) of 2009, P.L. No. 111-5, enacted
February 17, 2009, provides fiscal relief to States to protect and maintain State Medicaid
programs in a period of economic downturn. For the recession adjustment period
(October 1, 2008, through December 31, 2010), the ARRA provides $87 billion in additional
Medicaid funding based on temporary increases in States’ Federal medical assistance
percentages (FMAP). The Federal Government pays its share of a State’s medical assistance
expenditures under Medicaid based on the FMAP, which varies depending on the State’s relative
per capita income.

The Department of Health and Human Services, Office of the Assistant Secretary for Planning
and Evaluation (ASPE), calculates the temporary FMAP increases quarterly for the 50 States and
the District of Columbia. ASPE provides these FMAPs to the Centers for Medicare & Medicaid
Services (CMS), which uses them to determine the amount of Federal funds to award to States
through its Medicaid grant process. For the first two quarters of Federal fiscal year (FY) 2009,
CMS made available to States, beginning February 25, 2009, approximately $15.2 billion in
additional Medicaid funding based on the increased FMAPs.

Section 5001 of the ARRA provides for calculating the temporary FMAP increases based on
three components: maintenance of the FMAP (“hold harmless”), an across-the-board increase of
6.2 percentage points, and additional relief based on increases in States’ average monthly
unemployment rates.

OBJECTIVE

Our objective was to determine whether ASPE calculated the temporary FMAP increases for the
first and second quarters of FY 2009 in accordance with applicable provisions of the ARRA.

SUMMARY OF RESULTS

ASPE calculated the temporary FMAP increases for the first and second quarters of FY 2009 for
the 50 States and the District of Columbia in accordance with applicable provisions of the
ARRA. Specifically, ASPE identified the correct FMAP hold harmless (the higher of the
published FMAPs for FYs 2008 and 2009 for each State and the District of Columbia), added the
across-the-board increase of 6.2 percentage points, and properly calculated the additional relief.
Consequently, this report contains no recommendations.




                                                i
                                            TABLE OF CONTENTS

                                                                                                                        Page

INTRODUCTION.............................................................................................................1

          BACKGROUND ....................................................................................................1
              Medicaid Program.......................................................................................1
              Temporary Increases in Federal Medical Assistance Percentages .............1
              Calculation of Increased Federal Medical Assistance Percentages ............2

          OBJECTIVE, SCOPE, AND METHODOLOGY ..................................................3
               Objective .....................................................................................................3
               Scope...........................................................................................................3
               Methodology ...............................................................................................4

RESULTS OF REVIEW ..................................................................................................4

APPENDIX

          INCREASED FEDERAL MEDICAL ASSISTANCE PERCENTAGES
            FOR THE FIRST TWO QUARTERS OF FEDERAL FISCAL YEAR 2009




                                                              ii
                                            INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Pursuant to section 1905(b) of the Act, the Federal Government pays its share of a State’s
medical assistance expenditures under Medicaid based on the Federal medical assistance
percentage (FMAP), which varies depending on the State’s relative per capita income. 1
Although FMAPs are adjusted annually for economic changes in the States, Congress may
increase FMAPs at any time. Pursuant to section 1101(a)(8)(B) of the Act, the Secretary of
Health and Human Services is required to calculate and publish yearly in the Federal Register the
FMAPs for the 50 States and the District of Columbia.

Temporary Increases in Federal Medical Assistance Percentages

The American Recovery and Reinvestment Act (ARRA) of 2009, P.L. No. 111-5, enacted
February 17, 2009, provides fiscal relief to States to protect and maintain State Medicaid
programs in a period of economic downturn. For the recession adjustment period
(October 1, 2008, through December 31, 2010), the ARRA provides $87 billion in additional
Medicaid funding based on temporary increases in States’ FMAPs. Section 5000 of the ARRA
provides these increases to help avert cuts in health care provider payment rates, benefits, or
services and to prevent changes in income eligibility requirements that would reduce the number
of individuals eligible for Medicaid. For the first two quarters of Federal fiscal year (FY) 2009,
CMS made available to States, beginning February 25, 2009, approximately $15.2 billion in
additional Medicaid funding based on the increased FMAPs.

Section 5001(e) of the ARRA states that the temporarily increased FMAPs do not apply to
Medicaid disproportionate share hospital, State Children’s Health Insurance Program, or TANF
expenditures; Medicaid expenditures for individuals made eligible through income eligibility
expansions after July 1, 2008; or expenditures subject to an enhanced FMAP.

Pursuant to section 5001(f) of the ARRA, a State is not eligible for an FMAP increase if the
State restricted Medicaid eligibility standards, methodologies, or procedures under its State plan


1
 The FMAP is also used to determine the Federal Government’s share of certain child support enforcement
collections, Temporary Assistance for Needy Families (TANF) contingency funds, a portion of the Child Care and
Development Fund, and foster care and adoption assistance payments.



                                                       1
after July 1, 2008. In addition, pursuant to sections 5001(f) and (g) of the ARRA, a State is not
eligible for an FMAP increase if the State (1) fails to comply with prompt payment requirements,
(2) deposits the increased funds in any reserve or rainy day account, or (3) requires increased
local government contributions toward the non-Federal share of Medicaid expenditures in a State
where local governments are required to contribute. 2

Pursuant to section 5001(f)(5) of the ARRA, no increase in a State’s FMAP may result in an
FMAP that exceeds 100 percent.

Calculation of Increased Federal Medical Assistance Percentages

The Department of Health and Human Services, Office of the Assistant Secretary for Planning
and Evaluation (ASPE), calculates the temporary FMAP increases quarterly for the 50 States and
the District of Columbia. 3 ASPE provides the FMAPs to CMS, which uses them to determine
the amount of Federal funds to award to States through its Medicaid grant process.

Sections 5001(a), (b), and (c) of the ARRA provide for calculating the temporary FMAP
increases based on the following three components:

    •   First, ASPE determines the maintenance of the FMAP (“hold harmless”) for each State,
        which ensures that no State’s FMAP will decline as a result of the calculation of the
        temporary increase. For example, if a State’s published FY 2008 FMAP is higher than its
        published FY 2009 FMAP, ASPE should use the FY 2008 FMAP as the FMAP hold
        harmless.

    •   Second, ASPE adds to the FMAP hold harmless an across-the-board increase of
        6.2 percentage points for each State.

    •   Third, ASPE adds for each State additional relief based on an increase in the State’s
        average monthly unemployment rate, if applicable. 4 The following formula illustrates
        the computation of additional relief:

                                                                                  Applicable %
                                          FMAP Hold
        Additional
         Relief    =      [100% – (        Harmless         +   3.1%   )] ×        Based on
                                                                              Unemployment Increase



2
 Exclusions based on deposits in any reserve or rainy day account and increased local government contributions do
not affect the maintenance of the FMAP.
3
 Because the ARRA was enacted during the second quarter of FY 2009, the ARRA included a special rule in
section 5001(c)(4)(C) with respect to calculating the increased FMAPs for the first two quarters of FY 2009. Based
on this calculation, each State’s increased FMAP was the same for both quarters.
4
 ASPE calculates the increase in a State’s average monthly unemployment rate by comparing the State’s average
unemployment rate over the most recent 3-consecutive-month period with the State’s average historical low
unemployment rate over any 3 consecutive months beginning January 1, 2006.



                                                        2
ASPE uses the most recent average monthly unemployment data provided by the Department of
Labor’s Bureau of Labor Statistics (BLS) to determine a State’s applicable percentage. The
following table shows the applicable percentages.

                        Applicable Percentages for Additional Relief

           State Unemployment Percentage Increase                Applicable Percentage
    Less than 1.5 percentage points                                       0%
    At least 1.5 but less than 2.5 percentage points                     5.5%
    At least 2.5 but less than 3.5 percentage points                     8.5%
    At least 3.5 percentage points                                      11.5%

The following example illustrates the calculation, based on ARRA requirements, of a State’s
increased FMAP for the first two quarters of FY 2009.


                          Example of Increased FMAP Calculation

    A State’s published FMAP was 66.2 percent for FY 2008 and 65.77 percent for
    FY 2009. Because the State’s FMAP for FY 2008 was higher than for FY 2009, the
    State is held harmless at its FY 2008 FMAP (66.2 percent). The State’s most recent
    unemployment increase was 2.8 percentage points, which results in an applicable
    percentage of 8.5 percent for the additional relief calculation.

    Increased FMAP = 66.2% + 6.2% + {[100% – (66.2% + 3.1%)] × 8.5%}
                   = 66.2% + 6.2% + (30.7% × 8.5%)
                   = 66.2% + 6.2% + 2.61%
                   = 75.01%



OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether ASPE calculated the temporary FMAP increases for the
first and second quarters of FY 2009 in accordance with applicable provisions of the ARRA.

Scope

We reviewed the calculations of the temporary FMAP increases for the first and second quarters
of FY 2009 (October 1, 2008, through March 31, 2009) for the 50 States and the District of
Columbia. We limited our review of internal controls to obtaining an understanding of ASPE’s
policies and procedures related to calculating the increased FMAPs. We performed our
fieldwork in March and April 2009 at the offices of ASPE and BLS in the District of Columbia.




                                               3
Methodology

To accomplish our objective, we:

   •   reviewed Federal laws,

   •   discussed with ASPE its methodology for calculating the increased FMAPs,

   •   validated the arithmetic of ASPE’s calculations of the increased FMAPs,

   •   verified that ASPE used the correct FMAP hold harmless for each State and the District
       of Columbia by comparing the FYs 2008 and 2009 FMAPs published in the Federal
       Register,

   •   obtained from BLS the most recent published unemployment rates,

   •   traced the unemployment rates that ASPE used in its calculations of the additional relief
       to BLS’s supporting data, and

   •   interviewed BLS officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                    RESULTS OF REVIEW

ASPE calculated the temporary FMAP increases for the first and second quarters of FY 2009 for
the 50 States and the District of Columbia in accordance with applicable provisions of the
ARRA. Specifically, ASPE identified the correct FMAP hold harmless (the higher of the
published FMAPs for FYs 2008 and 2009 for each State and the District of Columbia), added the
across-the-board increase of 6.2 percentage points, and properly calculated the additional relief.
Consequently, this report contains no recommendations.

The FMAP increases ranged from 6.2 to 13.9 percentage points. See the Appendix for a list of
the increased FMAPs for the 50 States and the District of Columbia for the first and second
quarters of FY 2009.

During our review of ASPE’s calculations of the additional relief, we noted that the average
monthly unemployment data provided by BLS were not from an official published source. BLS
provided the data in an electronic file with no text identifying BLS as the source. We met with
BLS officials and verified that BLS’s published monthly employment figures were the basis of
the data provided to ASPE. BLS officials readily acknowledged that the data provided to ASPE
did not look as if they were from an official source. For future calculations of the increased




                                                4
FMAPs, BLS agreed to provide ASPE with officially transmitted documentation, including both
the average monthly unemployment data and the supporting published monthly figures.




                                             5
APPENDIX
                                                                                    APPENDIX

            INCREASED FEDERAL MEDICAL ASSISTANCE PERCENTAGES
           FOR THE FIRST TWO QUARTERS OF FEDERAL FISCAL YEAR 2009

                          Federal Fiscal Year
                                                    Increased FMAP
                           (FY) 2009 Federal
              State                             for the First and Second   Percentage Point Increase
                          Medical Assistance
                                                  Quarters of FY 2009
                          Percentage (FMAP)
Alabama                         67.98%                  76.64%                        8.66
Alaska                          50.53%                  58.68%                        8.15
Arizona                         65.77%                  75.01%                        9.24
Arkansas                        72.81%                  79.14%                        6.33
California                      50.00%                  61.59%                       11.59
Colorado                        50.00%                  58.78%                        8.78
Connecticut                     50.00%                  60.19%                       10.19
Delaware                        50.00%                  60.19%                       10.19
District of Columbia            70.00%                  77.68%                        7.68
Florida                         55.40%                  67.64%                       12.24
Georgia                         64.49%                  73.44%                        8.95
Hawaii                          55.11%                  66.13%                       11.02
Idaho                           69.77%                  78.37%                        8.60
Illinois                        50.32%                  60.48%                       10.16
Indiana                         64.26%                  73.23%                        8.97
Iowa                            62.62%                  68.82%                        6.20
Kansas                          60.08%                  66.28%                        6.20
Kentucky                        70.13%                  77.80%                        7.67
Louisiana                       71.31%                  80.01%                        8.70
Maine                           64.41%                  72.40%                        7.99
Maryland                        50.00%                  58.78%                        8.78
Massachusetts                   50.00%                  58.78%                        8.78
Michigan                        60.27%                  69.58%                        9.31
Minnesota                       50.00%                  60.19%                       10.19
Mississippi                     75.84%                  83.62%                        7.78
Missouri                        63.19%                  71.24%                        8.05
Montana                         68.04%                  76.29%                        8.25
Nebraska                        59.54%                  65.74%                        6.20
Nevada                          50.00%                  63.93%                       13.93
New Hampshire                   50.00%                  56.20%                        6.20
New Jersey                      50.00%                  58.78%                        8.78
New Mexico                      70.88%                  77.24%                        6.36
New York                        50.00%                  58.78%                        8.78
North Carolina                  64.60%                  73.55%                        8.95
North Dakota                    63.15%                  69.95%                        6.80
Ohio                            62.14%                  70.25%                        8.11
Oklahoma                        65.90%                  74.94%                        9.04
Oregon                          62.45%                  71.58%                        9.13
Pennsylvania                    54.52%                  63.05%                        8.53
Rhode Island                    52.59%                  63.89%                       11.30
South Carolina                  70.07%                  78.55%                        8.48
South Dakota                    62.55%                  68.75%                        6.20
Tennessee                       64.28%                  73.25%                        8.97
Texas                           59.44%                  68.76%                        9.32
Utah                            70.71%                  77.83%                        7.12
Vermont                         59.45%                  67.71%                        8.26
Virginia                        50.00%                  58.78%                        8.78
Washington                      50.94%                  60.22%                        9.28
West Virginia                   73.73%                  80.45%                        6.72
Wisconsin                       59.38%                  65.58%                        6.20
Wyoming                         50.00%                  56.20%                        6.20
